No. 20-1425

 

IN THE

Supreme Court of the United States

C.H. ROBINSON WORLDWIDE, INC.,

Petitioner,
v.

ALLEN MILLER,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF FOR THE TRANSPORTATION
INTERMEDIARIES ASSOCIATION, INC.
AS AMICUS CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,770 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 19, 2021.

 

Colin Casey Hggan
Wilson-Epes Printing Co., Inc.
